TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Employees Continue to Be Susceptible to
                  Social Engineering Attempts That Could Be
                               Used by Hackers



                                           July 20, 2007

                              Reference Number: 2007-20-107




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 July 20, 2007


 MEMORANDUM FOR CHIEF, MISSION ASSURANCE AND SECURITY SERVICES

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Employees Continue to Be Susceptible to Social
                              Engineering Attempts That Could Be Used by Hackers
                              (Audit # 200720029)

 This report presents the results of our review to evaluate the susceptibility of Internal Revenue
 Service (IRS) employees to social engineering1 attempts that could be used by hackers to gain
 access to IRS systems. This review is part of our statutory requirements to annually review the
 adequacy and security of IRS technology.

 Impact on the Taxpayer
 The IRS has nearly 100,000 employees and contractors who have access to tax return
 information processed on approximately 240 computer systems and over 1,500 databases. Using
 social engineering tactics, we determined IRS employees, including managers, are not complying
 with the rudimentary computer security practices of protecting their passwords. As a result, the
 IRS is at risk of providing unauthorized persons access to taxpayer data that could be used for
 identity theft and other fraudulent schemes.

 Synopsis
 We made 102 telephone calls to IRS employees, including managers and a contractor, and posed
 as computer support helpdesk representatives. Under this scenario, we asked for each
 employee’s assistance to correct a computer problem and requested that the employee provide
 his or her username and temporarily change his or her password to one we suggested. We were

 1
  A method used to circumvent existing computer security controls by exploiting the human element to obtain
 sensitive information that can be used to access computer resources and data.
                   Employees Continue to Be Susceptible to Social Engineering
                           Attempts That Could Be Used by Hackers



able to convince 61 (60 percent) of the 102 employees to comply with our requests. As part of
the audit, we also evaluated whether employees contacted appropriate offices to report or
validate our test calls. Only 8 of the 102 employees in our sample contacted either the audit
team, the Treasury Inspector General for Tax Administration Office of Investigations, or the IRS
computer security organization to validate our test as being part of an official Treasury Inspector
General for Tax Administration audit.
The above conditions were particularly alarming because we had conducted similar social
engineering test telephone calls in August 2001 and December 2004.2 Our 2001 and 2004 test
calls yielded 71 percent and 35 percent noncompliance rates, respectively. In response to these
two prior audits, the IRS took corrective actions to raise awareness of password protection
requirements and social engineering attempts. However, the corrective actions have not been
effective. Based on the results of this audit, we conclude employees either do not fully
understand security requirements for password protection or do not place a sufficiently high
priority on protecting taxpayer data in their day-to-day work. To better understand employee
behavior, we asked the employees in our sample why they did not comply with IRS password
security requirements. Some of the notable reasons given were that the employee thought the
scenario sounded legitimate and believable, did not think changing his or her password was the
same as disclosing the password, or had experienced past computer problems.
When employees are susceptible to social engineering attempts, the IRS is at risk of providing
unauthorized persons access to computer resources and taxpayer data. In addition, when
attempts at social engineering are not reported to appropriate personnel, the IRS cannot
investigate incidents and take action to minimize the effect of a security breach.

Recommendations
The Chief, Mission Assurance and Security Services, should continue security awareness
activities to remind employees of the potential for social engineering attempts and the need to
report these incidents to the IRS computer security organization, conduct internal social
engineering tests on a periodic basis to increase employees’ security awareness and the need to
protect usernames and passwords, and coordinate with business units to emphasize the need to
discipline employees for security violations resulting from negligence or carelessness.




2
 Management Advisory Report: Network Penetration Study of Internal Revenue Service Systems (Reference
Number 2002-20-057, dated March 2002) and While Progress Has Been Made, Managers and Employees Are Still
Susceptible to Social Engineering Techniques (Reference Number 2005-20-042, dated March 2005).
                                                                                                           2
                 Employees Continue to Be Susceptible to Social Engineering
                         Attempts That Could Be Used by Hackers




Response
IRS management agreed with our recommendations. The Mission Assurance and Security
Services organization will continue to deliver social engineering messages and use results from a
social engineering survey to remind employees of the potential for social engineering attempts
and the need to report these incidents to the IRS Computer Security Incident Response Center.
Also, the Mission Assurance and Security Services organization will conduct at least one internal
social engineering test during Fiscal Year 2008 to increase employees’ security awareness and
the need to protect usernames and passwords. The test will be robust and statistically diverse,
surveying thousands of IRS employees. The IRS will communicate the results of the tests to
business units to increase awareness. Additionally, a revised Penalty Guide has been developed
and is currently being negotiated with the National Treasury Employees Union. When the Guide
is published, the Mission Assurance and Security Services organization will emphasize to the
business units the need to implement the new guidance. Management’s complete response to the
draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                               3
                        Employees Continue to Be Susceptible to Social Engineering
                                Attempts That Could Be Used by Hackers




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Employees Continue to Struggle With Complying With the Basic
          Security Requirements of Protecting Their Passwords and
          Reporting Possible Security Incidents ..........................................................Page 3
                    Recommendation 1:..........................................................Page 5

                    Recommendations 2 and 3: ......................................................... Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Results From Test Calls .......................................................Page 10
          Appendix V – Management’s Response to the Draft Report .......................Page 13
        Employees Continue to Be Susceptible to Social Engineering
                Attempts That Could Be Used by Hackers




                      Abbreviations

IRS             Internal Revenue Service
TIGTA           Treasury Inspector General for Tax Administration
                    Employees Continue to Be Susceptible to Social Engineering
                            Attempts That Could Be Used by Hackers




                                          Background

During an interview with the National Public Radio on April 7, 2007, regarding the Treasury
Inspector General for Tax Administration (TIGTA) audit report1 on the loss of computers
containing sensitive taxpayer data, the Internal Revenue Service (IRS) Commissioner stated,
“Every day, there are attempts to get into our databases, and there has never been a penetration
of the IRS databases from the outside.” In recent years, TIGTA Office of Audit penetration tests
have confirmed that the IRS has secured its computer network perimeters from external cyber
threats.
As more attacks are blocked at an organization’s computer network perimeters, hackers have
turned to alternative methods to break into computer systems and steal sensitive data. One
method is social engineering, which is used to circumvent existing computer security controls by
exploiting the human element to obtain sensitive information that can be used to access computer
resources and data. A typical social engineering tactic involves a hacker posing as an internal
employee, such as a computer support person, and calling employees to convince them to share
critical information about (1) the organization, computer system, or infrastructure or
(2) their usernames and passwords.
We have previously conducted two tests to evaluate employee susceptibility to social
engineering attempts. In August 2001, we found 71 of 100 employees were willing to provide us
with their usernames and change their passwords to one we suggested.2 In December 2004, we
used the same methodology and found a 50 percent improvement, with only 35 of
100 employees willing to provide their usernames and change their passwords.3 From both
audits, we made recommendations to improve employee training on social engineering attempts
and issue periodic awareness publications on the dangers of social engineering.
Exposing sensitive data unnecessarily can lead to potential identity theft and/or other fraudulent
schemes. Identity theft refers to a crime in which someone wrongfully obtains and uses another
person’s personal data in some way that involves fraud or deception, typically for financial or
economic gain. According to the Federal Bureau of Investigation, identity theft is one of the
fastest growing white-collar crimes in the United States. The Department of Commerce
estimates that more than 50 million identities were compromised in Calendar Year 2005. The


1
  The Internal Revenue Service Is Not Adequately Protecting Taxpayer Data on Laptop Computers and Other
Electronic Media Devices (Reference Number 2007-20-048, dated March 23, 2007).
2
  Management Advisory Report: Network Penetration Study of Internal Revenue Service Systems (Reference
Number 2002-20-057, dated March 2002).
3
  While Progress Has Been Made, Managers and Employees Are Still Susceptible to Social Engineering Techniques
(Reference Number 2005-20-042, dated March 2005).
                                                                                                      Page 1
                  Employees Continue to Be Susceptible to Social Engineering
                          Attempts That Could Be Used by Hackers



challenges for the IRS in protecting against identity theft are the amount and sensitivity of the
information it processes and the sheer size of the organization, which employs nearly
100,000 employees and contractors who have access to tax return information processed on
approximately 240 computer systems and over 1,500 databases.
This review is part of our statutory requirements to annually review the adequacy and security of
IRS technology. We also recognized the enormous and political risk of exposing sensitive
taxpayer information, educating employees on protecting taxpayer data, and following up to
ensure security solutions are working as intended. This review was performed from our office in
Walnut Creek, California, and in the Office of Mission Assurance and Security Services in
Lanham, Maryland, during the period March through April 2007. The audit was conducted in
accordance with Government Auditing Standards. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                             Page 2
                 Employees Continue to Be Susceptible to Social Engineering
                         Attempts That Could Be Used by Hackers




                                Results of Review

Employees Continue to Struggle With Complying With the Basic
Security Requirements of Protecting Their Passwords and Reporting
Possible Security Incidents
Password protection is one of the basic and rudimentary computer security practices for
organizations, and the IRS has adequate password policies and procedures. Managers and
employees are not to reveal or share their passwords with anyone, regardless of his or her
position inside or outside of the IRS. This includes, but is not limited to, the employee’s
manager, helpdesk staff, system administrators, and security personnel. Additionally, employees
are not to accept passwords that are not delivered securely. Password protection allows the IRS
to limit access to its computer resources and taxpayer data to persons who need it to accomplish
their official duties. To support password security awareness, the IRS requires all managers and
employees to acknowledge these rules prior to obtaining access to any IRS computer systems
and to annually recertify they are aware of their responsibilities.
The IRS has posted these requirements and password security policies on its internal web site.
The web site also has a document that describes social engineering and provides examples of
social engineering attempts, specifically mentioning the use of telephone calls to conduct this
type of attack. The document uses an example of a caller pretending to be someone needing
assistance and attempting to get the employee to reveal his or her logon information and change
his or her password to one the caller suggests.
While these awareness efforts are notable, managers and employees continue to be susceptible to
social engineering attempts. We made 102 telephone calls to employees, including managers
and a contractor, and posed as Modernization and Information Technology Services organization
helpdesk personnel who were seeking assistance to correct a network problem. This is the same
scenario we used in our prior two social engineering tests. Under this scenario, we asked each
employee to provide his or her username and temporarily change his or her password to one we
suggested. We were able to convince 61 (60 percent) of the 102 employees to comply with our
requests, even though doing so violated the IRS security policy and procedures. Appendix IV
provides further details about our sample and audit results.
We limited our sample to 102 employees because we had to make the telephone calls quickly
before our tests were publicized throughout the IRS. Due to the sample size, we were unable to
project our results throughout the IRS. However, we believe our sample was sufficient to
demonstrate that IRS employees continue to be susceptible to social engineering attempts and


                                                                                         Page 3
                  Employees Continue to Be Susceptible to Social Engineering
                          Attempts That Could Be Used by Hackers



that employees do not provide sufficient emphasis to the security of taxpayer data in their
day-to-day activities.
To better understand employee behavior, after informing the employees and managers in our
sample that the calls were part of a TIGTA social engineering audit, we asked them why they did
not comply with IRS password security requirements. The 61 noncompliant employees provided
the following reasons:
    •   The scenario sounded legitimate and believable (21 employees).
    •   The employee believed changing his or her password was not the same as disclosing the
        password, which he or she knew was against the rules (10 employees).
    •   The employee knew the rules but changed his or her password anyway (8 employees).
    •   The employee was having or had previously had computer problems (7 employees).
    •   The employee had a lack of training or did not know the rules to protect his or her
        password (4 employees).
    •   No reason was provided (11 employees).
The 41 employees who complied with the password security requirements provided the
following reasons for not providing their passwords:
    •   Awareness training, email advisories, or group meetings reinforced the need for
        protecting his or her username and/or password (20 employees).
    •   The employee did not believe the scenario or could not verify the caller (17 employees).
    •   No reason was cited (4 employees).
As part of this audit, we also evaluated whether IRS employees contacted appropriate personnel
after we had informed them the calls were part of a TIGTA audit and ended the calls. Potential
security breaches, including attempted and actual security breaches, should be forwarded to the
IRS computer security organization for notification and further evaluation. Information on these
incidents allows the computer security organization to minimize the impact of a security breach
and determine whether the IRS is being attacked on various fronts or the incidents are isolated.
The IRS computer security organization received contact from only one IRS employee who
reported that a call came from the TIGTA Office of Audit as part of the social engineering test
and he or she was concerned about the test.
In addition, the following contacts were made by IRS employees:
   •    The manager of the audit team received telephone calls from three employees to verify
        the calls were part of an official TIGTA audit.


                                                                                              Page 4
                  Employees Continue to Be Susceptible to Social Engineering
                          Attempts That Could Be Used by Hackers



   •   The TIGTA Office of Investigations received contacts from four employees who had
       been called as part of this test.
The IRS cannot react swiftly to thwart social engineering attempts and other potential security
breaches when employees do not notify appropriate authorities. While our calls were part of an
official TIGTA audit, hackers could include a reference to a nonexistent TIGTA audit in an
attempt to divert attention from their social engineering attempts, particularly if an employee
questions the call.
The above conditions were particularly alarming because we had conducted similar social
engineering test telephone calls in August 2001 and December 2004. In the respective
management responses to those audits, the IRS stated it:
   •   Would update its security awareness program to include training on computer intrusions
       and unauthorized access and use existing media, such as the annual security training and
       security awareness week, to communicate IRS security standards on password protection
       procedures.
   •   Had incorporated the topic of social engineering into its mandatory annual Online
       Security Awareness Training, which included examples and scenarios of attempts used to
       gain access to IRS systems. In addition, the IRS stated periodic reminders would be
       issued in the forms of (1) all-employee notices that would be included with employees’
       Earnings and Leave statements and (2) articles in the computer security newsletter.
These corrective actions were completed but have not been effective. Based on our results, we
conclude employees either do not fully understand security requirements for password protection
or do not place a high priority on protecting taxpayer data in their day-to-day work.
When employees are susceptible to social engineering attempts, the IRS is at risk of providing
unauthorized persons access to computer resources and taxpayer data that could be used for
identity theft and other fraudulent purposes. In addition, when attempts at social engineering are
not reported to appropriate personnel, the IRS cannot investigate incidents and take action to
minimize the effect of a security breach.

Recommendations
The Chief, Mission Assurance and Security Services, should:
Recommendation 1: Continue security awareness activities to remind employees of the
potential for social engineering attempts and the need to report these incidents to the IRS
Computer Security Incident Response Center in the Office of Mission Assurance and Security
Services.
       Management’s Response: The Chief, Mission Assurance and Security Services,
       agreed with our recommendation and will continue to deliver social engineering
                                                                                           Page 5
                 Employees Continue to Be Susceptible to Social Engineering
                         Attempts That Could Be Used by Hackers



       messages as specified in the 2007 Information Security Awareness Plan. In addition, the
       Mission Assurance and Security Services organization has worked with the
       Communications and Liaison organization to conduct a survey on social engineering to
       assess the knowledge base of IRS personnel. The results of this survey are being used to
       tailor future communications efforts to remind employees of the potential for social
       engineering attempts and the need to report these incidents to the IRS Computer Security
       Incident Response Center.
Recommendation 2: Conduct internal social engineering tests on a periodic basis to increase
employees’ security awareness and the need to protect usernames and passwords. The results of
these tests should be provided to all IRS employees.
       Management’s Response: The Chief, Mission Assurance and Security Services,
       agreed with our recommendation and will conduct at least one internal social engineering
       test during Fiscal Year 2008, using lessons learned from TIGTA tests, to increase
       employees’ security awareness and the need to protect usernames and passwords. The
       test sample will be robust and statistically diverse, surveying thousands of IRS
       employees. The results of these tests will be communicated to business units to increase
       awareness.
Recommendation 3: Coordinate with business units to emphasize the need to discipline
employees for security violations resulting from negligence or carelessness.
       Management’s Response: The Chief, Mission Assurance and Security Services,
       agreed with our recommendation. A revised Penalty Guide has been developed and is
       currently being negotiated with the National Treasury Employees Union. When the
       Penalty Guide is published, the Mission Assurance and Security Services organization
       will emphasize to the business units through various communications the need to
       implement the new guidance.




                                                                                         Page 6
                    Employees Continue to Be Susceptible to Social Engineering
                            Attempts That Could Be Used by Hackers



                                                                                            Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the susceptibility of IRS employees to social
engineering1 attempts that could be used by hackers to gain access to IRS systems. To
accomplish this objective, we:
I.      Evaluated the adequacy of IRS security policies and procedures that have been
        established to guide employees in recognizing and handling social engineering attempts.
II.     Informed the Deputy Commissioner for Services and Enforcement; the Deputy
        Commissioner for Operations Support; the Chief, Mission Assurance and Security
        Services; and the TIGTA Office of Investigations of our social engineering tests on the
        day we made the telephone calls.
III.    Made telephone calls to IRS employees and managers posing as a Modernization and
        Information Technology Services organization helpdesk employee.
        A. Developed a scenario for social engineering attempts using telephone calls. We
           decided to use a scenario similar to the one we had used during our previous tests in
           2001 and 2004.
        B. Judgmentally selected a sample of 102 IRS employees, including managers and a
           contractor, from a population of 95,858 employees who were outside of the
           Modernization and Information Technology Services and the Mission Assurance and
           Security Services organizations as of January 19, 2007. We used a judgmental
           sample because we were not projecting the audit results and needed to complete the
           telephone calls before our test was publicized throughout the IRS.
        C. Made 102 telephone calls in 1 day to the sample of employees.
IV.     Reviewed the planned corrective actions from our two previous social engineering
        reviews to determine whether the IRS’ corrective actions had been implemented.2




1
  A method used to circumvent existing computer security controls by exploiting the human element to obtain
sensitive information that can be used to access computer resources and data.
2
  Management Advisory Report: Network Penetration Study of Internal Revenue Service Systems (Reference
Number 2002-20-057, dated March 2002) and While Progress Has Been Made, Managers and Employees Are Still
Susceptible to Social Engineering Techniques (Reference Number 2005-20-042, dated March 2005).
                                                                                                     Page 7
                 Employees Continue to Be Susceptible to Social Engineering
                         Attempts That Could Be Used by Hackers



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Steve Mullins, Director
Kent Sagara, Audit Manager
Midori Ohno, Lead Auditor
Richard Borst, Senior Auditor
Cari Fogle, Senior Auditor
Michael Garcia, Senior Auditor
Allen Gray, Senior Auditor
Bret Hunter, Senior Auditor
Jody Kitazono, Senior Auditor
Louis Lee, Senior Auditor
Abraham Millado, Senior Auditor
Beverly Tamanaha, Senior Auditor
Louis Zullo, Senior Auditor




                                                                                         Page 8
                Employees Continue to Be Susceptible to Social Engineering
                        Attempts That Could Be Used by Hackers



                                                                 Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Information Officer OS:CIO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Information Officer OS:CIO
       Chief, Mission Assurance and Security Services OS:MA




                                                                        Page 9
                  Employees Continue to Be Susceptible to Social Engineering
                          Attempts That Could Be Used by Hackers



                                                                                             Appendix IV

                             Results From Test Calls

For further perspective on our test results, we gathered additional information on the telephone
calls we made.
Figure 1 presents our results from the 102 IRS employees in our sample by IRS business unit.
                    Figure 1: Test Call Results by IRS Business Unit
                                                            Number of          Changed
                   Business Unit
                                                            Employees          Password
                   Agency-Wide Shared Services                     3                 2
                   Communications and Liaison                      1                 0
                   Criminal Investigation                          2                 1
                   Human Capital Office                            4                 2
                   Large and Mid-Size Business                     4                 4
                   National Taxpayer Advocate                      7                 3
                   Office of Appeals                               4                 2
                   Office of Chief Counsel                         2                 0
                   Small Business/Self-Employed                  27                15
                   Tax Exempt and Government                       3                 2
                   Entities
                   Wage and Investment                           45                30
                   TOTALS                                       102                61
                  Source: TIGTA analysis of the IRS business units included in the audit test.




                                                                                                  Page 10
                       Employees Continue to Be Susceptible to Social Engineering
                               Attempts That Could Be Used by Hackers



Figure 2 presents our results by IRS locations of the 102 employees.
                             Figure 2: Test Call Results by IRS Location

                                                                         Number of       Changed
               Location
                                                                         Employees       Password

               Western (California, Colorado, Nevada,
                                                                              25           18
               Oregon, Utah, Washington, Wyoming)
               South (Florida, Georgia, Kentucky,                             41           22
               Louisiana, Tennessee, and Texas)
               Midwest (Indiana, Kansas, Michigan,                            15            7
               Missouri, Ohio, South Dakota)
               East (Connecticut, Delaware, Massachusetts,
               Maryland, New Jersey, New York,                                21           14
               Pennsylvania, Washington, D.C., and
               West Virginia)
               TOTALS                                                       102            61
              Source: TIGTA analysis of the IRS locations included in the audit test.

Figure 3 presents our results by employee and manager positions, based on the individual’s job
title. For example, job titles with the words supervisor, supervisory, manager, or branch chief
were considered managers.
              Figure 3: Test Call Results by Employee and Manager Positions
                                                           Number of         Changed
                                   Position
                                                           Employees         Password
                                   Employees1                  79                  45
                                   Managers                    23                  16
                                   TOTALS                     102                  61
                                  Source: TIGTA analysis of the IRS positions included
                                  in the audit test.




1
    The total number of employees included a contractor.
                                                                                                    Page 11
    Employees Continue to Be Susceptible to Social Engineering
            Attempts That Could Be Used by Hackers



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 13
Employees Continue to Be Susceptible to Social Engineering
        Attempts That Could Be Used by Hackers




                                                      Page 14
Employees Continue to Be Susceptible to Social Engineering
        Attempts That Could Be Used by Hackers




                                                      Page 15
Employees Continue to Be Susceptible to Social Engineering
        Attempts That Could Be Used by Hackers




                                                      Page 16
